—s

IN THE DISTRICT COURT OF DOUGLAS COUNTY, NEBRASKA
THE STATE OF NEBRASKA,
Plaintiff,
V.

LEANDRE R. JENNINGS, III,
Defendant.

)
)
)
)
)
)
)
)
)
)
)
)

CR 17-903

ORDER ON DEFENDANT'S
MOTIONS TO SUPPRESS

This matter comes before the Court on Defendant's Motions to Suppress. A hearing on the

motions was held on November 1 6,2017. The State appeared by Deputy Douglas County Attorney
Michael Jensen. The Defendant appeared with his counsel, Douglas County Public Defender
Thomas Riley. Arguments were heard and evidence was adduced. The Defendant and the State
submitted written briefs on December 8, 2017. The matter was taken under advisement. On
January 10, 2018, the Defendant filed a motion requesting this Court to stay its rulings until the
United States Supreme Court issued its decision in Carpenter v. United States, No. 16-402, 2018
WL 3073916 (U.S. June 22, 2018). After first holding a hearing on the issue, the Court granted the
Defendant's Motion to Stay. (Order Granting Motion to Stay, January 17, 2018). Following the
Supreme Court's decision in Carpenter, additional hearings on Defendant's Motions to Suppress
were held on June 27, 2018 and July 13, 2018. The State appeared by Deputy Douglas County
Attorneys Brenda Beadle and Amy Jacobsen. The Defendant appeared with his counsel, Douglas
County Public Defender Thomas Riley and Assistant Public Defender, Natalie Andrews.
Additional evidence was received, arguments were heard, and the matter was taken under
advisement. Being fully advised, the Court finds and orders as follows:
I

wS^^SS^

ApfUwii^F. 0^^®%^
AUG 2 7 2018

FACTS AND PROCEDURAL HISTORY

Leandre R. Jennings, III ("Defendant") is charged with: (I) Murder First Degree, a Class
IA felony; (II) Use of a Deadly Weapon (Firearm) to Commit a Felony, a Class 1C felony; and
(Ill) Possession of a Deadly Weapon by a Prohibited Person, a Class ID felony.

Witnesses reported that at approximately 5:30 pm on December 23, 2016, two armed males
entered the home of Michael Brinkman at 18139 Tammy Trail, Omaha, Douglas County, Nebraska
and demanded money. (Ex. 1-6). During the ensuing confrontation, Michael Brinkman was fatally
shot. (Ex. 1-6). The subsequent investigation into the homicide discovered items detemiined to
have been dropped by one of the suspects during the physical altercation, including a partial y
eaten piece of bread believed to have originated from a Raising Canes Restaurant. (Ex. 1-6).
Investigators also discovered video surveil ance of a newer model white SUV vehicle parked in

front of 18139 Tammy Trail during the time of the home invasion. (Ex. 1-6). Further investigation
revealed that a 2016 Dodge Durango SUV (Texas plates GSB-1580) had been rented by Camell
Watt ("Watt") (phone niimber 402-739-4520) from December 13, 2016, through December 27,
2016. (Ex. 1-6). During an interview with investigators. Watt stated that she had loaned the rented
vehicle on multiple occasions to family and friends, including the Defendant. (Ex. 1-6). DNA from
the partial y eaten piece of bread linked the Defendant to the crime scene. (Ex. 1-6). The Nebraska
Criminal Justice Infonnation System ("NCJIS") database infonned investigators that Defendant
was on U.S. Probation and his probation officer provided investigators with Defendant's cellular
phone number (402-850-5695). (Ex. 1 -6). Metropolitan Utilities District records revealed that Watt

and the Defendant both resided at 7401 North 60th Street, Omaha, Douglas County, Nebraska. (Ex.
1-6). Clearly, the ongoing investigation portended an uncertain nexus between the Defendant,
Watt, and an unknown second male intruder.
2

On February 14, 2017, the Omaha Police Department ("OPD") obtained a court order
directing U.S. Cellular to turn over records and information pertaining to the cellular phone
number 402-850-5695 pursuant to the federal Stored Communications Act 18 U.S.C. § 2703(d).
(Ex. 1). On Febmary 14, 2017, OPD also obtained a court order directing Sprint Corporation to
turn over records and infonnation pertaining to the cellular phone niunbers 402-739-4520 and 402850-5695 pursuant to the federal Stored Communications Act 18 U.S.C. § 2703(d). (Ex. 2). In the
affidavits used to support the court orders, Officer Derek Mois ofOPD ("Officer Mois"), detailed
the above findings of the investigation into the murder and stated that "data held by [service
provider] will aid in determining the possible relationship between the aforementioned individuals
and provide details on the events which lead to the death of Michael R. Brinkman." (Ex. 1 and 2).
Also on February 14, 2017, digital forensic technicians were able to determine through cell tower
data that Watt's cell phone was in the area of 2422 W. Broadway, Council Bluffs, Iowa on
December 23, 2016, at approximately 3:20 pm. (Ex. 3 and 4). Investigators knew this to be the
location of a Raising Canes Restaurant. (Ex. 3 and 4).

On February 16, 2017, OPD recovered video surveillance from the Raising Canes
Restaurant which showed a newer model white Dodge Durango SUV enter the drive through at
the 2422 W. Broadway, Council Bluffs location at approximately 3:17 pm. (Ex. 3 and 4). A man
matching the physical characteristics of the Defendant paid with cash at the pick-up window. (Ex.
3 and 4). Investigators discovered that an outgoing call was made from Defendant's phone (402-

850-5695) at 4:39 pm which connected to a tower in the area of South 168th Street and Q Street.
(Ex. 3 and 4). Another outgoing voice call from the Defendant's phone number at 5:44 pm
coimected to a tower in the area of South 144th Street and Q Street. (Ex. 3 and 4).
3

•I

OPD arrested the Defendant on February 16, 2017. (Ex. 3). At the time of his arrest the
Defendant had in his possession a LG K8 model cell phone with the MEID # 35604507019166.
and a 402-850-5695 phone number. (Ex.3).

On February 17, 2017, OPD obtained a warrant to search the Defendant's residence at 7401

North 60th Street, Omaha, Douglas County, Nebraska. (Ex. 4). In his affidavit supporting the
application for a search warrant, Officer Mois detailed the above findings of the ongoing murder
investigation. (Ex. 4). Durmg the execution of the search warrant on the residence located at 740 1
North 60 Street, OPD also seized, pursuant to the warrant, the following devices:
• Black LG cell phone MEID 35604507029510(under EV# 89)
Black Kyocera cell phone HEX 99000421524564 (under EV# 95)

Black Samsung cell phone DEC 089656935104491589 which was seized from Watt

(under EV# 100)

(Ex. 3). Following the seizure of the phones, OPD also obtained a warrant to search the content
of the phones. (Ex. 3).

Defendant filed four separate motions to suppress. The first motion to suppress was filed
on August 7, 2017,and seeks the suppression of evidence obtained as a result of the search of the

residence located at 7401 North 60th Street, Omaha, Nebraska pursuant to the search warrant
contained in Exhibit 4. The second motion to suppress was filed on November 6, 2017, and seeks
the suppression of evidence stemming from the forensic search of cellular phone number 402-8505695 which came about as a result of the court order contained in Exhibit 1 under the federal Stored

Communications Act. The third motion to suppress was filed on November 13, 2017, and seeks
the suppression of evidence resulting from the forensic search of cellular phone numbers 402-8505695 and 402-739-4520 which came about as a result of the court order contained in Exhibit 2

under the federal Stored Communications Act. The fourth motion to suppress was also filed on
4

»

f

November 13, 2017, and seeks the suppression of evidence obtained as a result of a search of the
substantive content of cellular phones identified as a Black LG cell phone MEID 3 560450702951 0
and a Black Kyocera cell phone HEX 99000421524564, which was authorized by the search
warrant contained in Exhibit 3.

On April 11, 2018 and May 11, 2018, during the interim period while the Court stayed its
decision pending the Supreme Court's holding in Carpenter v. United States, OPD obtained search
warrants directing Sprint Corporation to turn over records and information pertaining to the
cellular phone numbers 402-739-4520 and 402-850-5695 (Ex. 5) and Sprint Corporation to turn
over records and information pertaining to the cellular phone number 402-850-5695. (Ex. 6).
STANDARD OF REVIEW

A ruling on a motion to suppress is a question of fact to be determined by the trial court as
the finder of fact. State v. Tucker, 262 Neb. 940, 946, 636 N.W.2d 853, 859 (2001). On a claim of
insufficiency of the affidavit supporting the issuance of a search warrant, the trial court's ruling on
a motion to suppress will be upheld unless its findings are clearly erroneous. State v. Ball, 271
Neb. 140, 150, 710 N.W.2d 592, 602 (2006). The State bears the burden of proof at a suppression
hearing, but that burden is only by a preponderance of the evidence. United States v. Matlock, 415
U.S. 164, 177 n. 14, 94 S. Ct.988, 996 (1974).
ANALYSIS

A. COURT ORDERS PURSUANT TO FEDERAL STORED COMMUNICATIONS

ACT (Ex. 1 and 2) AND SUBSEQUENT SEARCH WARRANTS (Ex. 5 and 6)
(Second and Third Motions to Suppress):

In the matter at bar, the court orders compelled US Cellular (Ex. 1) and Sprint Corporation
(Ex. 2) to turn over records and information which is commonly referred to as historical cell site
5

location information ("CSLI") for the time period between December 1, 2016, through February
14, 2017. The CSLI was not used to track the users of the phones prospectively or in real time.
Defendant contends: (i) the State's acquisition ofCSLI constituted a search under the United States
and Nebraska Constitutions and required a warrant (Second and Third Motions to Suppress,
November 6 and 13,2017, ^ 18); (ii) the supporting affidavits were insufficient (Second and Third
Motions to Suppress, November 6 and 13, 2017, ^ 3, 4, 12, and 15); and (iii) the court orders lack
the requisite specificity and do not find probable cause (Second and Third Motions to Suppress,
November 6 and 13, 2017, ^ 5,13, and 17).
i.

The State's acquisition ofCSLI constituted a search under the Fourth Amendment:

The Fourth Amendment to the United States Constitution and article I, § 7 of the Nebraska
Constitution protect individuals from unreasonable searches and seizures by the government. State
v. Knutson, 288 Neb. 823, 835, 852 N.W.2d 307, 319 (2014). "The Fourth Amendment's
protections are implicated whenever state action intrudes on a citizen's reasonable expectation of
privacy." Id. The United States Supreme Court has long held that detennining whether a
reasonable expectation of privacy exists normally embraces two discrete questions. "The first is
whether the individual, by his conduct, has exhibited an actual (subjective) expectation of privacy
. .. [tjhe second question is whether the individual's subjective expectation of privacy is one that
society is prepared to recognize as reasonable . . . ." Smith v. Maryland, 442 U.S. 735, 740, 99 S.
Ct. 2577, 2580 (1979) (internal quotes and citations omitted).
;

The first issue to address is whether the State's acquisition of the Defendant's CSLI

amounts to a search under the United States Constitution. This question was recently decided by
the United States Supreme Court in Carpenter v. United States, No. 16-402, 2018 WL 3073916
6

(U.S. June 22, 2018). The Court in Carpenter held that "an individual maintains a legitimate
expectation of privacy in the record of his physical movements as captured through CSLI." Id., at
*9. In declining to extend the third-party doctrine to CSLI over a protracted period of time, the
Court ruled that the government's acquisition of CSLI constituted a search within the meaning of
the Fourth Amendment. Id., at * 12. As such, the government must generally obtain a warrant
supported by probable cause before acquiring CSLI. Id., at * 13.

Although the captions of the supporting affidavits and subsequent orders are couched as

search warrants, the Douglas County Court found that the State had "offered specific and
articulable facts showing that there are reasonable grounds to believe that the records or other
information sought are relevant and material to an ongoing criminal investigation." (Ex. 1 and 2).
This is the standard for a court order under 18 U.S.C. § 2703(d). Additionally, the charging
language in the orders state that the authority for the orders is pursuant to 18 U.S,C. § 2703(d).
(Ex. 1 and 2). The Nebraska Supreme Court in State v. Jenkins encountered similar inconsistencies
but stated that the § 2703(d) order is properly characterized as a court order and not a search
warrant. State v Jenkins, 294 Neb. 684, 692-93, 884 N.W.2d 429, 438 (2016). "[Ajlthough the
Stored Communications Act authorizes governmental entities to obtain cell phone records using
either warrants or court orders, the records in this case were obtained using a court order issued
pursuant to § 2703(d). Id. (internal citations omitted). As such, the court orders issued pursuant to
the federal Stored Con-ununications Act 18 U.S.C. § 2703(d), which requires only articulable facts
showing reasonable grounds to believe that the information sought is relevant and material to an
ongoing criminal investigation, rather than a warrant supported by probable cause, were
insufficient under the standard recently articulated by the Supreme Court in Carpenter. The Court
notes, however, that OPD subsequently obtained warrants to acquire CSLI for cell phone numbers
7

402-850-5695 and 402-739-4520 (Ex. 5 and 6). Accordingly, the April 11, 2018, search warrant
(Ex. 5) and the May 8, 2018, search warrant (Ex. 6) cure the constitutional infinnities associated
with the February 14, 2017, court order pursuant to 18 U.S.C. § 2703(d).
ii. Sufficiency of Affidavit and Probable Cause fEx. 5 and 6}:

The Defendant also challenges the sufficiency of the supporting affidavits for the § 2703(d)

court orders and the probable cause of the supporting affidavits for the April 11th and May 8th 2018
search warrants. As stated above, the § 2703(d) court orders permitting CSLI collection were

insufficient per Carpenter. Accordingly, the Court needs only to consider the sufficiency of the

probable cause of the supporting affidavits for the April 11th and May 8th 2018, search wanants.
In reviewing the strength of an affidavit, the question is whether, under the totality of the
circumstances illustrated by the affidavit, the issuing magistrate had a substantial basis for finding
that the affidavit established probable cause. State v. Henderson, 289 Neb. 271, 286-87, 854
N.W.2d 616, 631 (2014). "Probable cause sufficient to justify issuance of a search warrant means
a fair probability that contraband or evidence of a crime will be found." Id., 289 Neb. at 287, 854
N.W.2d at 631. A magistrate's determination of probable cause to issue a search warrant should
be paid great deference by reviewing courts and should not take on afiter-the-fact scmtiny in the
form of a de novo review. State v. Bossow, 274 Neb. 836, 744 N.W.2d 43 (2008)
In its affidavits filed in support of the search warrants to obtain CSLI from Sprint and U.S.
Cellular, OPD detailed the nexus between Watt, the newer model white SUV parked in front of

18139 Tammy Trail during the time of the home invasion, the 2016 Dodge Durango SUV rented
by Watt during that time, Watt's statements that she allowed the Defendant to use the Dodge
Durango, and the Defendant's DNA at the crime scene. (Ex. 5 and 6). The affidavits farther state
8

that the data held by Sprint and U.S. Cellular would aid in determining the possible relationship
between the Defendant, Watt, and the other individual who invaded the residence of Michael

Brinkman. (Ex. 5 and 6). After reviewing the supporting affidavits, the Court finds that under the
totality of the circumstances illustrated by the affidavits, the issuing magistrate had a substantial
basis for finding that the affidavits established probable cause.
iii. Sufficiency of the Particularity in Search Warrants (Ex. 5 and 6):

The Defendant argues that the search warrants lack specificity and particularity. (Second

and Third Motions to Suppress, November 6 and 13, 2017, ^ 5, 13, and 17). First, the Court notes

that the April ll* and May 8th 2018 search warrants do make probable cause findings. Second,
regarding specificity, contrary to the Defendant's assertions, the search warrants were sufficiently
particularized. The probable cause established in the ongoing investigation clearly provided a
nexus between the Defendant, Watt, and an unknown second male intmder. The officer's belief
that the data held in the phones would aid the investigation in determining the possible relationship

between the individuals and provide details on the events leading to the death of Michael Brintanan
was reasonable and supported by the circumstances. The search warrants also explicitly delineated
what records were to be turned over, they did not include the substantive contents of
communications, and the warrants imposed temporal limitations and did not permit prospective or
real time tracking. (Ex. 5 and 6). Defendant's arguments concerning deficiencies in the search
warrants is unpersuasive.

The Defendant's Motion to Suppress evidence resulting from the acquisition ofCSLI from

cellular phone numbers 402-850-5695 and 402-739-4520, kept by Sprint Corporation, which came
about as a result of the April 11, 2018, search warrant contained in Exhibit 5 is denied. The

Defendant's Motion to Suppress evidence resulting from the acquisition ofCSLI from cellular
9

phone number 402-850-5695, kept by U.S. Cellular Corporation, which came about as a result of
the May 8, 2018, search warrant contained in Exhibit 6 is also denied.

B. SEARCH WARRANT: 7401 N. 60TH STREET RESIDENCE (Ex. 4) (First Motion to
Suppress):

Defendant also seeks the suppression of evidence obtained from the search of the residence

located at 7401 North 60th Street, Omaha, Nebraska pursuant to the search warrant contained in
Exhibit 4. Defendant argues (i) the affidavit and search warrant did not establish probable cause
to believe that evidence of a criminal offense was located inside the residence. (First Motion to
Suppress, August 7,2017, ^ 2 and 5); (ii) the search warrant authorized and the police conducted
a general search (First Motion to Suppress, August 7, 2017, ^ 3-4); and (iii) the magistrate
improperly authorized the search to be conducted as a no-knock search without sufficient cause to
authorize a no-knock search warrant (First Motion to Suppress, August 7, 2017, ^ 6).
SyfficjencY of Affidavit and Probable Cause Finding:

1.

"[A] search warrant, to be valid, must be supported by an affidavit which establishes
t6|

probable cause." State v. Nuss, 279 Neb. 648, 653, 781 N.W.2d 60, 65 (2010). "Probable cause
sufficient to justify issuance of a search warrant means a fair probability that contraband or
evidence of a crime will be found." Id., 279 Neb. at 653, 781 N.W.2d at 65-66. "To establish
probable cause for the issuance of a search wan-ant, it must be probable that (1) the described items
are connected with criminal activity and (2) they are to be foimd in the place to be searched." State
v. Sprunger, 283 Neb. 531, 540, 811 N.W.2d 235, 243-44 (2012).

The Court finds that probable cause existed for the challenged affidavit and search warrant.
The supporting affidavit detailed the physical description of the suspects, the clothes they wore
10

;

during the commission of the crime, the instruments used during the home invasion and murder,
that the suspect vehicle at the crime scene was believed to be rented to Watt, that Watt stated in an
interview with OPD that she allowed the Defendant to use the 2016 Dodge Durango SUV rented
in her name, that Defendant's DNA was linked to the crime scene, that outbound phone calls from
Defendant's phone number were made both shortly before and shortly after the time of Michael
Brinkman's murder, that these outbound calls coimected with towers in the vicinity of the crime
scene, that a partially eaten piece of bread believed to have originated from a Raising Canes
Restaurant was recovered from the crime scene, and video surveillance from a Raising Canes
Restaurant showed a newer model white Dodge Durango SUV enter the drive through at the 2422
W. Broadway, Council Bluffs location on the afternoon of the murder with a man matching the

physical characteristics of the Defendant paying in cash at the pick-up window. (Ex. 4). The
supporting affidavit also detailed that Metropolitan Utilities District records revealed that both

Watt and the Defendant resided at 7401 North 60th Street. (Ex. 4). The Court finds that there was
probable cause to believe that the described items were connected with criminal activity and would
be found at the Defendant's residence. As such, there was a probable cause basis for the affidavit
and warrant for the search of the residence at 7401 North 60th Street.
ii.

Particularity:

The Defendant argues that the search warrant authorized a general search of the residence

and did not specify with particularity the items to be seized. (First Motion to Suppress, August 7,
2017, ^ 3-4). Specifically, Defendant objects to the second enumerated paragraph in the search
warrant which authorizes OPD to search for and seize:

Cellular phone(s), computer(s) recording device(s) including audio and video,
companion equipment, records, whether stored on paper, magnetic media such as
tape, cassette, disk, diskettes, or on memory storage devices such as optical disks,
11

*

programmable instruments such as telephones, "electronic address books", or any
other storage media, together with indicia of use, ownership, possession or control

of the aforementioned residence;

(Ex.4,pg.8,U2).

In addition to the requirement of probable cause, the Fourth Amendment contains a
particularity requirement. SeeSlate v. Sprunger, 283 Neb. 531, 539, 811 N.W.2d235, 243 (2012).
"Simply put, the Fourth Amendment prohibits 'fishing expeditions.'" Id. "A warrant satisfies the
particularity requirement if it leaves nothing about its scope to the discretion of the officer serving

it." State v. Tyler, 291 Neb. 920, 934, 870 N.W.2d 119,130 (2015). The particularity requirement
also protects against warrants that permit seizure of items other than what is described. Henderson,
289 Neb. at 289, 854 N.W.2d at 633.

In reviewing the search warrant for the search of Defendant's residence, the Court finds

there is sufficient particularity. The search warrant specifies items which witnesses stated were
used in the commission of the crime (i.e. firearms and companion equipment, masks, clothes, and
gloves). Regarding the second paragraph's authorization for the search and seizure of cellular
phones, computers, and recording devices, the Court finds it to be sufficiently particularized. The
warrant did not leave the scope of the search to the discretion of the officer, nor did it permit
seizure of items other than what is described. This was not a generalized search warrant that
permitted the seizure of "any and all infonnation," and it did not equate to a fishing expedition.
Indeed, the supporting affidavit detailed that CSLI from the Defendant's phone indicated that
outbound calls from the vicinity of the crime scene were made both shortly before and shortly after
the time of Michael Brinkman's murder.

12

111.

No-Knock Search Warrant:

The Defendant also argues that the magistrate improperly authorized the search to be
conducted as a no-knock search without sufficient cause to authorize a no-knock search warrant.

(First Motion to Suppress, August 7, 2017, ^ 6). '"In order to justify a 'no-knock' entry, the police
must have a reasonable suspicion that knocking and announcing their presence, under the
particular circumstances, would be dangerous or futile, or that it would inhibit the effective
investigation of the crime by, for example, allowing the destruction of evidence.'" State v. Kelley,
265 Neb. 563, 570,658 N.W.2d 279,286 (2003) (citing Richards v. Wisconsin, 520 U.S. 385,394,
117 S. Ct. 1416,1421 (1997). At the time of the search warrant, the Defendant was a suspect in
the violent home invasion and murder of Michael Brinkman. As such, OPD indeed had reasonable
suspicion that knocking and announcing their presence would be dangerous. The Defendant's
August 7, 2017, Motion to Suppress the evidence obtained as a result of the search of the residence
located at 7401 North 60th Street in Omaha, Nebraska is denied.

C. SEARCH WARRANT FOR PHONES SEIZED DUMNG THE SEARCH OF
DEFENDANT'S RESIDENCE (Ex. 3) (Fourth Motion to Suppress):
Defendant's fourth motion to suppress seeks the suppression of evidence obtained as a
result of searches of the substantive content of cellular phones identified as a Black LG cell phone

MEID 35604507029510 and a Black Kyocera cell phone HEX ,99000421524564, which was
authorized by the search warrant contained in Exhibit 3. These phones were seized pursuant the
search warrant of Defendant's residence.
w

"To establish probable cause for the issuance of a search warrant, it must be probable that
(1) the described items are connected with criminal activity and (2) they are to be found in the
place to be searched." Sprunger, 283 Neb.at 540,81 1 N.W.2d at 243-44. In reviewing the strength
13

of an affidavit, the question is whether, under the totality of the circumstances illustrated by the
affidavit, the issuing magistrate had a substantial basis for finding that the affidavit established
probable cause. Henderson, 289 Neb. at 286-87, 854 N.W.2d at 631. "Probable cause sufficient to
justify issuance of a search warrant means a fair probability that contraband or evidence of a crime,
will be found." Id., 289 Neb. at 287, 854 N.W.2d at 631.

After reviewing the supporting affidavit, the Court finds that under the totality of the
circumstances illustrated by the affidavit, the issuing magistrate had a substantial basis for fmding
that the affidavit established probable cause and were sufficiently particular. The supporting
affidavit states that the Defendant's probation officer provided a current cell phone number for the

Defendant. (Ex. 3). The Defendant's phone number was 402-850-5695. (Ex. 3). The affidavit also
states that outbound phone calls from Defendant's phone number (402-850-5695) were made both
shortly before and shortly afiter the time of Michael Brinkman's murder. (Ex. 3). The affidavit
states that these outbound calls connected with towers in the vicinity of the crime scene. (Ex. 3).
The affidavit further states that when the Defendant was arrested for the murder of Michael

Brinkman, the Defendant had a LG K8 model cell phone with the MEID# 35604507019166 in his
possession. (Ex. 3). The phone number for the phone in the Defendant's possession at the time of
his arrest was 402-850-5695. (Ex. 3).

Regarding the second paragraph's authorization for the search and seizure of cellular
phones, computers, and recording devices, the Court finds it to be sufficiently particularized as to
the seizure of cellular phones. The supporting affidavit detailed that CSLI from the Defendant's
phone indicated outbound calls from the vicinity of the crime scene made both shortly before and
shortly after the time of Michael Brinkman's murder. It is reasonable to believe that the phones
could possibly contain data relevant to the ongoing investigation and were potentially in the
14

^

possession of Jennings or Watt around the time of the homicide. The data held by the phones
could also aid in determining the possible relationship between the Defendant, Watt, and the other
individual who invaded the residence of Michael Brinkman. The Defendant's November 13,2017,
Motion to Suppress the evidence obtained as a result of searches of the substantive content of
cellular phones identified as a Black LG cell phone MEID 35604507029510 and a Black Kyocera
cell phone HEX 99000421524564 is denied.
CONCLUSION

IT IS THEREFORE ORDERED, ADJUDGED, AND DECREED that the Defendant's
November 6, 2017, Motion to Suppress the CSLI evidence from .phone number 402-850-5695,
obtained from U.S. Cellular pursuant to the May 8, 2018, search warrant is denied.
IT IS FURTHER ORDERED, ADJUDGED, AND DECREED that the Defendant's
November 13, 2017, Motion to Suppress the CSLI evidence from phone numbers 402-850-5695
and 402-739-4520, obtained from Sprint Corporation pursuant to the April 11, 2018, search
warrant is denied.

IT IS FURTHER ORDERED, ADJUDGED, AND DECREED that the Defendant's
August 7,2017, Motion to Suppress the evidence obtained as a result of the search of the residence
located at 7401 North 60th Street in Omaha, Nebraska is denied.

IT IS FURTHER ORDERED, ADJUDGED, AND DECREED that the Defendant's
November 13, 2017, Motion to Suppress the evidence obtained as a result of searches of the
substantive content of cellular phones identified as a Black LG cell phone MEID 35604507029510
and a Black Kyocera cell phone HEX 99000421524564 is denied.

15

.•

DATED this ^'7 day of August, 2018.
BY THE COURT:,

[•ly M. (Panl^^nin
\ Court Judge

c

ec: Brenda Beadle, Amy Jacobsen
Thomas Riley, Natalie Andrews

16

Biiiijijiiiiiijgiii

"^"^^mmw^ms^wAWS^wwwf^wvmm
:^:^:^::^:;:^

;:-;

I, the undersigned, certify that on August 28, 2018 , I served a copy of the foregoing
document upon the following persons at the addresses given, by mailing by United States Mail,
postage prepaid, or via E-mail:

Thomas C Riley

Brenda D Beadle

thomas.riley@douglascounty-ne.gov

brenda.beadle@douglascounty-ne.gov

KETV
NEWSOKETV.corn

ps%%:•••S?

^
-p:

^-

%

^

!*

*
\.

Date: August 28, 2018

BY THE COURT:

JK
CLERK

/
;\
..•:
^^-..^
-COUNT!

